<html>
<title> - NOMINATION OF LYNN C. LEIBOVITZ TO BE AN ASSOCIATE JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 107-161]
[From the U.S. Government Printing Office]






                                                        S. Hrg. 107-161

                    NOMINATION OF LYNN C. LEIBOVITZ

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 ON THE

    NOMINATION OF LYNN C. LEIBOVITZ TO BE AN ASSOCIATE JUDGE OF THE 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             JULY 26, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
75-482                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                     Cynthia Gooen Lesser, Counsel
              Jason M. Yanussi, Professional Staff Member
Marianne Clifford Upton, Staff Director and Chief Counsel, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Johanna, L. Hardy, Minority Counsel
   Mason C. Alinger, Minority Professional Staff Member, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Durbin...............................................     1

                               WITNESSES
                        Thursday, July 26, 2001

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Lynn C. Leibovitz to be an Associate Judge of the Superior Court 
  of the District of Columbia....................................     2
    Biographical and financial information.......................     5

 
    NOMINATION OF LYNN C. LEIBOVITZ TO BE AN ASSOCIATE JUDGE OF THE 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                              ----------                              


                        THURSDAY, JULY 26, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard 
Durbin presiding.
    Present: Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin [presiding]. The hearing will come to order. 
Good morning and welcome to you, and I am going to try to catch 
my breath here. I just came up the steps. We have problems with 
elevators over here. The Committee on Governmental Affairs is 
holding this hearing to consider the nomination of Lynn 
Leibovitz to be an Associate Judge on the District of Columbia 
Superior Court.
    I would like to, before I go into background, recognize 
Delegate Norton for her statement.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman. It is with both 
pleasure and pride that I introduce a Washingtonian who comes 
especially well-prepared, in my judgment, for your 
consideration for the post of Associate Judge on our D.C. 
Superior Court, a court on which she clerked and would now 
serve. Ms. Leibovitz has spent most of her legal career as an 
Assistant U.S. Attorney, rising to be Deputy Chief and now 
Acting Chief of the Homicide Division. She has been recognized 
by the U.S. Attorney for superior performance, and by the 
Justice Department with special awards. She has been an adjunct 
professor in trial practice at Georgetown, from which she 
graduated in 1985. She is a Phi Beta Kappa graduate of Brown 
University. Ms. Leibovitz has been very active in our local bar 
and in volunteering to work with children and rebuilding 
neighborhoods. I strongly recommend her for your consideration, 
for our Superior Court.
    Senator Durbin. Thank you, Delegate Norton, for that kind 
introduction, and I am sure Ms. Leibovitz appreciates it, as 
well. I am sure this is a special day for you, as you 
contemplate the next step in your legal career. You have some 
members of your family with you today; is that correct?
    Ms. Leibovitz. Yes, Mr. Chairman, I do.
    Senator Durbin. Would you be kind enough to introduce them 
for the record?

 TESTIMONY OF LYNN C. LEIBOVITZ\1\ TO BE AN ASSOCIATE JUDGE OF 
         THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Leibovitz. I would. Thank you.
---------------------------------------------------------------------------
    \1\ Biographical and financial information appear in the Appendix 
on page 5.
---------------------------------------------------------------------------
    Thank you, Congresswoman Norton, for the kind introduction.
    First of all, thank you, Senator Durbin, for the privilege 
of appearing before you today and for scheduling this hearing 
before the August break. I would like to introduce the friends 
and family that are with me. I have a number of colleagues from 
the U.S. Attorney's Office, almost all of whom serve now or 
have served in the Homicide Section, that I worked in: My good 
friends, Cynthia and Mark Simonson, are here; retired Sergeant 
Frank Morgan of the Metropolitan Police Department, is here; 
and finally, my husband, Ben Hecht, and my mother, Joan 
Leibovitz, and my father, Judge William Leibovitz from New 
York, are here.
    I also, if I may, would like to take the opportunity to 
thank President Bush and the D.C. Judicial Nominating 
Commission for the honor of this nomination.
    Senator Durbin. Well, I am certain that they have chosen 
well.
    Ms. Leibovitz. Thank you.
    Senator Durbin. As this brief hearing will demonstrate, 
there is little controversy associated with this nomination. I 
am sure that comes as no great disappointment. There is one 
peculiarity about the procedure of this Committee, which I will 
now acquaint you with, and that is that we swear in our 
witnesses. So I am going to ask you to please stand and raise 
your right hand. Do you swear the testimony you are about to 
give before this Committee is the truth, the whole truth, and 
nothing but the truth?
    Ms. Leibovitz. I do.
    Senator Durbin. Thank you. Let it be noted for the record 
that the witness answered in the affirmative.
    Aside from your opening remarks, is there anything that you 
would like to add at this point?
    Ms. Leibovitz. Nothing else. Thank you. I would be happy to 
answer any questions that you have.
    Senator Durbin. Well, everyone who goes through this 
process, as you know, is given a very brief little 
questionnaire to fill out, which probably took a few days.
    Ms. Leibovitz. It did, a few nights.
    Senator Durbin. It takes trying to remember everything that 
ever happened to you in your life and putting it on the record. 
I have had a chance to review it, and everything looks 
excellent. You were recommended by the District's Judicial 
Nominating Committee. You have been subjected to a background 
investigation and selected and nominated by the President. 
Since we have received your nomination, you have completed this 
thorough questionnaire we have referred to, and the staff has 
reviewed it.
    I have spoken to the investigators, and I am just going to 
ask you some very general questions which obviously do not 
reflect on your education or skill and professional ability, 
because I think those are all clear from your record, but some 
of them are very general in nature. For the record, first, is 
there anything that you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Leibovitz. Nothing that I am aware of.
    Senator Durbin. Second, do you know of any reason, personal 
or otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Leibovitz. No reason whatsoever.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Ms. Leibovitz. No, I know of no reason.
    Senator Durbin. I recall--it has been a few years now--
practicing before Federal judges in Springfield, Illinois. I 
suppose the one thing that I noted was the temperament issue, 
and you may have noted the same in your practice. Could you 
comment on this issue of judicial temperament, because those 
who are given either lifetime or long-term appointments 
occasionally--rarely--but occasionally lapse into some sort of 
a feeling of elevation and ascendancy that takes them away from 
the realm of reality. I would like your thoughts on that.
    Ms. Leibovitz. Well, I have had the opportunity to observe 
many judges in action, both professionally and personally, 
because my father is a judge, and for that reason I think I can 
keep the position in perspective. I think that the traits that 
would make the most perfect judge are very hard to come by in 
one person. However, I think that a great degree of respect for 
other people, no matter who they are, whether they are 
professionals or whether they are non-professionals, no matter 
what walk of life they come from, is the most important thing 
that a judge can bring. A sense of humility is another 
important trait. Brains and efficiency are two good things to 
have, and they have to be tempered by a degree of humanity, and 
those are all traits that I hope I can pull together.
    Senator Durbin. I always hoped that judges would remember 
when they, too, were just lawyers, and what life was like. I 
hope that you will have that recollection. Reflect for a moment 
on your experience in this Homicide Division; what have you 
learned about the law and yourself in that process?
    Ms. Leibovitz. My experience in the homicide practice has 
been the most exciting and most valuable thing I think I have 
ever done, other than having children, and what I have learned 
from it, as I think of all the things I have just described, 
which is a degree of personal humility in interacting with 
other people, no matter who they are. We come into contact with 
a lot of people who come from very challenging personal 
circumstances, families who have lost loved ones through 
unspeakable events, and witnesses who themselves have criminal 
backgrounds, substance abuse problems, limited education and 
every other possible kind of difficulty. I have learned that 
every one of them brings something to the process that I am a 
part of, and learned that showing respect for them and allowing 
them to show me what they can do is the most important thing 
that I bring to the process. It empowers them and it helps me 
do my job. I think that that is something I would bring to the 
bench.
    Senator Durbin. You have undoubtedly worked with victims' 
families and loved ones in this process.
    Ms. Leibovitz. Yes.
    Senator Durbin. What do you think the courts can do to be 
more sensitive to their experience?
    Ms. Leibovitz. I think that the courts can, first of all, 
become more effective at managing the calendars. I think that 
the families of homicide victims are very much affected by how 
long the process takes, and I often find myself wishing that I 
could explain to them why things take so long, other than just 
to keep on saying court congestion. So I do think that basic 
management of the calendar is something that the courts can 
look to, and I also think that the same humanity I have been 
talking about is something that is important to remember, that 
the victims and the victims' families look to the court for 
some degree of solace and resolution, and that a few minutes or 
a few words by a judge can make a big difference to them.
    Senator Durbin. Thank you. I do not have any further 
questions. I want to thank you for, obviously, being here today 
and your responses. They were very appropriate and encouraging. 
I want to thank your family for joining you. I am sure they are 
very proud today. I understand you interrupted a family 
vacation to come back to Washington today.
    Ms. Leibovitz. Yes, I did.
    Senator Durbin. I know how anxious you and the court are to 
have you confirmed and vested in office, and I am glad that we 
could work this hearing in before we do break in just a week or 
two. The next step in the process will be the prompt 
consideration of your nomination in the full Committee markup 
in the near future and reporting to the full Senate for final 
action. I am going to encourage Chairman Lieberman to move as 
quickly as possible on this, and I hope that we do not have to 
interrupt your vacation again to bring you back for any reason. 
But I thank you for coming today and for everyone's support and 
encouragement.
    With that, this hearing is adjourned.
    [Whereupon, at 9:45 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5482.001

[GRAPHIC] [TIFF OMITTED] T5482.002

[GRAPHIC] [TIFF OMITTED] T5482.003

[GRAPHIC] [TIFF OMITTED] T5482.004

[GRAPHIC] [TIFF OMITTED] T5482.005

[GRAPHIC] [TIFF OMITTED] T5482.006

[GRAPHIC] [TIFF OMITTED] T5482.007

[GRAPHIC] [TIFF OMITTED] T5482.008

[GRAPHIC] [TIFF OMITTED] T5482.009

[GRAPHIC] [TIFF OMITTED] T5482.010

[GRAPHIC] [TIFF OMITTED] T5482.011

[GRAPHIC] [TIFF OMITTED] T5482.012

[GRAPHIC] [TIFF OMITTED] T5482.013

[GRAPHIC] [TIFF OMITTED] T5482.014

[GRAPHIC] [TIFF OMITTED] T5482.015

[GRAPHIC] [TIFF OMITTED] T5482.016

[GRAPHIC] [TIFF OMITTED] T5482.017

[GRAPHIC] [TIFF OMITTED] T5482.018

[GRAPHIC] [TIFF OMITTED] T5482.019


</pre></body></html>
